    Audit Report




    OIG-11-092
    SAFETY AND SOUNDNESS: Failed Bank Review of First National
    Bank of Central Florida
    August 17, 2011




    Office of
    Inspector General
    DEPARTMENT OF THE TREASURY


\
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              August 17, 2011


             OIG-11-092

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Susan Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of First National Bank of Central Florida,
                                   Winter Park, Florida


             This memorandum presents the results of our review of the failure of First National
             Bank of Central Florida (FNBCF) located in Winter Park, Florida. FNBCF, a small
             community bank, was chartered in 1985 as First Sanlando Bank, National
             Association and changed to its current name in 1988. FNBCF operated five offices
             in and around Orlando, Florida. The Office of the Comptroller of the Currency
             (OCC) closed FNBCF and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on April 29, 2011. As of December 31, 2010, FNBCF had
             approximately $352.0 million in total assets and $312.1 million in total deposits.
             FDIC estimated that the loss to the Deposit Insurance Fund is $42.9 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of FNBCF that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
             5 year period before the bank’s failure, and (3) interviewed OCC personnel.

             We conducted this performance audit during May and June 2011 in accordance
             with generally accepted government auditing standards. Those standards require
             that we plan and perform the audit to obtain sufficient, appropriate evidence to
             provide a reasonable basis for our findings and conclusions based on our audit
             objectives. We believe that the evidence obtained provides a reasonable basis for
             our findings and conclusions based on our audit objectives.
OIG-11-092
Page 2

Causes of FNBCF’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank
experienced a substantial depletion of assets or earnings due to unsafe or unsound
practices, (2) the bank’s losses depleted all or substantially all of its capital and there
was no reasonable prospect for the bank to become adequately capitalized, and (3) the
bank was critically undercapitalized.

The primary causes of FNBCF’s failure were its aggressive growth strategy funded
by wholesale funding sources; excessive concentrations in higher-risk commercial
real estate loans, including loans secured by residential real estate and land
subdivisions; lax underwriting and loan portfolio management practices; and
ineffective board and management oversight. Despite repeated criticisms from OCC
examiners, FNBCF’s board and management failed to improve the bank’s credit
administration and risk management practices relating to concentration risk
management, underwriting, problem loan identification, and the allowance for loan
and lease loss level. In the end, FNBCF’s focus on commercial real estate loans in
central Florida without commensurate risk management practices or adequate
capital to protect the bank from a prolonged period of deterioration ultimately led to
FNBCF’s failure.

Conclusion
Based on our review of the causes of the FNBCF’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
this bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of failure
of FNBCF and that it had no concerns with our determination that an in-depth
review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-11-092

       Attachment 1
Management Response
                                                   OIG-11-092

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
